      Department of Homeland Security




     Independent Review of the U.S. Customs and Border 

        Protection’s Reporting of FY 2011 Drug Control 

                          Obligations 





OIG-12-35                                     January 2012

                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                               JAN 30 2012

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the Department.

This report presents the results of the review of the Table of FY 2011 Drug Control Obligations and
related disclosures of the U.S. Customs and Border Protection (CBP) for the year ended September
30, 2011, for the Office of National Drug Control Policy (ONDCP). We contracted with the
independent public accounting firm KPMG LLP to perform the review. CBP’s management
prepared the Table of FY 2011 Drug Control Obligations and related disclosures to comply with the
requirements of the ONDCP Circular, Drug Control Accounting, dated May 1, 2007 (the Circular).
Based on the review, nothing came to KPMG LLP’s attention that caused them to believe that the
Table of FY 2011 Drug Control Obligations and related disclosures for the year ended September
30, 2011, are not presented, in all material respects, in conformity with the Circular, or that
management’s assertions are not fairly stated, in all material respects, based on the criteria set forth
in the Circular. KPMG LLP is responsible for the attached independent accountants’ report dated
January 23, 2011, and the conclusions expressed in the report. We do not express an opinion on the
Table of FY 2011 Drug Control Obligations and related disclosures.

We trust this report will result in more effective, efficient, and economical operations. We express
our appreciation to all of those who contributed to the preparation of this report.




                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                     Independent Accountants’ Report


Acting Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Table of FY 2011 Drug Control Obligations and related disclosures
of the U.S. Department of Homeland Security’s (DHS) Customs and Border Protection (CBP) for the year
ended September 30, 2011. We have also reviewed the accompanying management’s assertions for the
year ended September 30, 2011. CBP’s management is responsible for the preparation of the Table of FY
2011 Drug Control Obligations, related disclosures, and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Table of FY 2011 Drug Control
Obligations, related disclosures, and management’s assertions. Accordingly, we do not express such an
opinion.

Management of CBP prepared the Table of FY 2011 Drug Control Obligations, related disclosures, and
management’s assertions to comply with the requirements of the Office of National Drug Control Policy
(ONDCP) Circular, Drug Control Accounting, dated May 1, 2007 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that (1) the Table of FY 2011
Drug Control Obligations and related disclosures for the year ended September 30, 2011, are not presented,
in all material respects, in conformity with the Circular, or that (2) management’s assertions referred to
above are not fairly stated, in all material respects, based on the criteria set forth in the Circular.

This report is intended solely for the information and use of the management of DHS and CBP, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 23, 2012




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                      U.S. Department ofHomeJand S« urity
                                                                      Washington. DC 20229


                                                                     u.s. Customs and
                                                                     Border Protection

    JAN 2 3 2012

Mr. R. Gil Kerlikowske
Director, Office of Nationa1 Drug Control Policy
Executive Office of the President
Office of National Drug Control Policy
Washington, DC 20503

Dear Mr. Kerlikowske:

The enclosed documents are the U.S. Customs and Border Protection (CBP) Fiscal Year (FY)
201 1 Detailed Accounting Submission on National Drug Control Funding. In FY 2011, CBP
reported direct obligations of approximately $2,199 million.

Ifwe may offer further assistance, please contact me at (202) 344-2300, or a member of your
stalTmay contact Mr. Keith Bratt at (202) 344·2472.

Respectfully,




Deborah 1. Schilling
Chief Financial Officer
U.S. Customs and Border Protection


Enclosures
                    U.S. DEPARTMENT OF HOMELAND SECURITY
                      U.S. CUSTOMS AND BORDER PROTECTION
              Detailed Accounting Submission of FY 2011 Drug Control Funds


DETAILED ACCOUNTING SUBMISSION

A. Table of FY 20 II Drug Control Obligations

                                    (Dollars in Millions)
                                                                                FY 2011

     Drug Resources by Budget Decision Unit and Function
      Sa laries & Expenses
             Intelligence                                                       $262.307
             Interdiction                                                     SI ,492.675
     Total, Salaries and Expenses                                             $1,754.982
      Air & Marine Operations
             lntell igence                                                      $113.900
             Interdiction                                                       S33I.022
     Total, Air & Marine Operations                                             $444.922
      Total Obligations                                                       52,199.904
      High Intensity Drug Traffic Area (HIDTA)
             Intelligence                                                         $0.009
             Interdiction                                                         $0.245
      HIDTA Total                                                                 50.254

I.   Drug Methodology

U.S. Customs and Border Protection (CBP) is a multi-mission bureau that calculates obligations,
by budget decision unit and functio n, pursuant to an approved drug methodology. On the basis
of past practice, five organizations withi n CBP: the U.S. Border Patrol (USBP) and the Offices
of Field Operations (OFO); Infonnation Technology (OlT); Training and Development (OTD);
and Air and Marine (OAM), were provided with guidance on preparing submissions for the
Fiscal Year (FY) 201 1 annual reporting of drug control obligations. USBP, OAM, OIT, OTD,
and OFO were asked to estimate what portion of their activities is related to drug enforcement.
The aforementioned portions are based on the expert opinions of operational and programmatic
staff from the offices.

All five organizations identified resources in their financ ial plans that support the drug
enforcement mission of the agency. OlT, OFO, USBP, and OAM attribute their resources to
both intelligence and interdiction functions; while OTD attributes its resources solely to
interdiction.
u.s. BORDER PATROL
ussP is responsible for controlling almost 6,000 miles of land borders between ports of entry
with Canada and Mexico and nearly 2,700 miles of coastal waters surrounding the Florida
Peninsula and Puerto Rico. As of September 201 1, there were 2 1,444, Border Patrol agents
assigned to the mission of detecting and apprehending ill egal entrants between the ports of entry.
These illegal entries include aliens and drug smugglers, potential terrorists, wanted criminals,
and persons seeking to avoid inspection at the designated ports of entry due to the ir
undocumented status. It has been detennined that nationwide, 15 percent of the total agent time
is related to drug activities. Of the 15 percent of total agent time related to drug activities, 3.5
percent of agents' efforts are re lated to inte lli gence and 96.5 percent are related to drug
interdiction based on a historical review of Border Patrol agents' time. These activities include
staffing 35 permanent border traffic checkpoi nts nationwide with 905 canine units trained in the
detection of humans and certain illegal drugs that are concealed within cargo containers, truck
trai lers, passenger vehicles, and boats. In addition, agents perform line watch functions in
targeted border areas that are frequent entry points for the smuggling of drugs and people into the
United States.

OFFICE OF FIE LD OPERATIONS

The Office of Cargo Conveyance and SecuritylNon-l ntrusive Inspection Divis ion of the OFO
estimates that, as of September 201 1, there were 5, I 08 CBP officer positions related to drug
enforcement on Anti-Terrorism Contraband Enforcement Teams (A-TCET). The A-TCET also
works closely with the Passenger Enforcement Rover Team (PERT) and Passenger Analytical
Unit (PAU) teams to coordinate all enforcement activities. Although the primary mission of
A-TCET teams is anti-terrorism, they also focus on all types of contraband, including narcotics.
Of OFO's resources related to d rug activities, 17 percent are related to intelligence and 83
percent are related to drug interdiction. The smuggli ng methods and their indicators are similar
for both narcotics and anti -terrorism activities.

As of September 20 I I, there were 629 Canine Enforcement Officers with assigned dogs.
Among the dogs paired with an officer, 142 were Narcotics Detection Teams, and 325
Narcotics/Human Smuggling Detection Teams. 100 percent of the efforts of these teams were
devoted to smuggling interdict ion.

As of September 20 11 , there were 14,766 other CBP officers, who, in addition to the interdiction
of contraband and illegal drugs, enforced hundreds of laws and regu lations of many other
Federal government agencies. The other Federal agencies include the U.S . Fish and Wildlife
Service; the Bureau of Alcohol , Tobacco, Firearms and Exp losives; the Bureau of Export
Administration; and many others. CBP estimates that roughly 30 percent of these officers' time
is devoted to drug-related activities based on a historical review of officers' time.
OFFICE OF INFORMA nON TECHNOLOGY

OIT supports the drug enforcement mi ssion through the acquisition, support, and maintenance of
technology, such as non-intrusive inspection systems and mi ssion critical targeting software
systems. or OIl' s spending, 30 percent of the Enforcement Techno logy Center; 25 percent of
Automated Target ing Systems (Passenger, Narcotics, and Anti-Terrorism) systems software
costs, 50 percent of the Treasury Enforcement Communicat ions System (TEeS); and 10 percent
of data center operations costs are estimated to support the drug miss ion. Of the percent of
OIT's resources related to drug activities, 44 percent are re lated to intelli gence and 56 percent
are rel ated to drug interdiction.

OFFICE OF TRAIN ING AND DEVELOPMENT

OTD provides courses which are funded via the National Training Plan (NTP). Specific training
programs involving drug control activities include the canine training programs and basic,
specialized, and advanced training for CBP Officers. Other OTD resources were attri buted to
drug enforcement activities based on the diverse nature of OTD ' s programs, such as anti-
terrorism, development of national programs, career development, leadership, new course
design/development, and succession management for the workforce. OTD ' s methodology
evaluates the number of course hours dedicated to drug interdicti on withi n the NTP and for each
course compares drug interdiction course hours against total course hours to determine the
percentage for drug interdiction.

OFFICE OF AIR & MARINE OPERA nONS

OAM is a critical component of CBP' border security layered enforcement strategy. With more
than 1,266 law enforcement personnel operating 270 aircraft and 30 I marine vessels from 11 9
locations throughout the United States, OAM conducts a broad range of operations and supports
multipl e operational objecti ves. OAM also supports Federal , state, loca!, and tribal law
enforcement partners. OAM uses its sophisticated and integrated air and marine fleets to detect,
sort, track, intercept, and apprehend criminals in diverse environments at and beyond U.S.
borders. Approximately 90 percent of the resources that support OAM are considered to be
drug-related, of which approximately 26 percent are related to intelligence, and 74 percent are
related to drug interdiction based on a historical review of pilots' time.

2. Methodology Modifications

The drug control methodology for obli gations used in FY 20 11 remained the same as the
methodology used in FY 20 IO.
3. Material Weaknesses or Other Findings

Pursuant to CBP's FY 2011 Internal Control Assurance Statement, the following financi al
weaknesses, reportable conditions, or non-conformance could affect the reporting of drug control
budget obligations.

Reporting Pursuant to the Department of Homeland Security (DHS) Financial Accountability
Act. P.L 108-330:

    a. Budgetary Accounting - Reportable Condit ion
CBP implemented policies and procedures requiring timely review and deobligations of fund s
when contracts have expired or are complete. These procedures were implemented during mid
FY 2011 , and consequently did not resolve the finding fo r all of FY 2011. The review and
deobli gation of completed contracts has significantly improved, and we will be monitoring its
effectiveness through FY 2012.

Reporting Pursuant to Federal Managers ' Financial Integrity Act Section 4. 31 U.S.C. 35 J 2
(d)(2)(B):

     a.   Financial Systems Security - Non-Conformance of Applicable Laws/DHS Directives

The DHS OIG has noted that there continues to be Infonnation Technology (IT) general and
application control weaknesses at CBP. During FY 20 11 ,4 IT findings issued in the FY 20 I 0
Financial Statement Audit were closed, though 17 new IT findin gs were issued. CBP has
developed a corrective action plan for each finding issued and will continue implementing
corrective actions until each finding is remediated.

4.   Reprogrammings or Transfers

There are no reprogrammings or transfer to report fo r FY 20 II.

5. Other Disclosures

There are no other di sclosures that CBP has determined are necessary to clari fy any issues
regarding the data reported under Office of Nationa l Drug Control Poli cy (ONDCP) Circular,
Drug Control Accounting, dated May I, 2007, Section (6)(b)(\).

B. Assertions

I. Obli gations by Budget Decision Unit

Not Applicable - As a multi-mission agency, CBP is exempt from reporting under this section as
noted in the ONDCP Circular, Drug Control Accounting, Section 6 (b) (I), dated May 1,2007.
2. Drug Methodology

CBP asserts that the methodology used to estimate drug enforcement related obligations is
reasonable and accurate. The criteria associated with this assertion are as fo llows:

    a. Data
    The estimate of drug enforcement related obligat ions is based on the methodology described
    in section A. I above, and presents a fair and accurate picture of the CBP drug enforcement
    m iSSion.


    b. Other Estimation Methods

    As referenced in section A.I , program offices used expert opinion to detennine drug budget
   methodologies. Intelligence and interdiction levels were estab lished and computed based
   upon the professional judgment of the programs. The drug control budget program totals and
   the percentage of resources related to drug enforcement activities were calculated by expert
   opinion.

   c. Financial Systems
   CBP's financial systems are capable of providing data that fairly present, in all material
   respects, aggregate obligations. The drug methodology described in section A 1 above is
   used to estimate what portion of these obligations may reasonably be cons idered to be
   associated with drug enforcement related activities.

3. Application of Drug Methodology

The methodology described in section A I above was used to prepare the estimates contained in
this report.

4. Reprogrammings o r Transfers

Pursuant to 2 1 U.S.C. 1703 (c)(4)(A), the ONDCP Circular on Budget Execution (revised May
1, 2007) prohibits agencies from submitting to Congress reprogramming or transfer requests that
would result in a decrease or increase of $1 million or more in fund ing included in the National
Drug Control Program budget without obtaining prior approval from the Director of National
Drug Control Po li cy. CBP did not submit a reprogramming that affected the drug control budget
during FY 20 I I.

5. Fund Control Notices

The Director of National Drug Control Policy did not issue a Fund Control Notice for CBP for
FY 20 11.
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Office of National Drug and Control Policy

                      Associate Director for Planning and Budget

                      United States Coast Guard

                      Commandant
                      Chief Financial Officer
                      Chief Information Officer

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
